NO. 19-____
IN THE
SUPREME COURT OF THE UNITED STATES
Streambend Properties II LLC et. al.,
Petitioners,
v.
Ivy Tower Minneapolis, LLC et. al.,
Respondents.
DECLARATION OF WORD COUNT
I, Rachel K. Nelson, hereby declare that the accompanying petition for a Writ of
Certiorari complies with the length limitations set forth in the Supreme Court Rule
33(1)(g)(i). The petition contains 6,434 words, excluding the questions presented, the list
of parties and the corporate disclosure statement, the table of contents, the table of cited
authorities, the listing of counsel at the end of the document, and any appendix. The
word count above also excludes verbatim questions required under Rule 14.1(f) and
Rule 24.1(f).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 18, 2019

/s/ Rachel K. Nelson
Law Offices of Rachel K. Nelson, PLLC
PO Box 120670
St. Paul, MN 55112
(763) 234 – 0447
attorney.rnelson@live.com
Attorney for Streambend Petitioners

